U.S. Department of                        The Inspector General             Office of Inspector General
Transportation                                                              Washington, DC 20590
Office of the Secretary
of Transportation



    Statement of the Inspector General Calvin L. Scovel III, on the Secretary’s
    Request to Undertake a Review of NHTSA’s Oversight of the GM Recalls

                                  Friday, March 21, 2014

We appreciate the Secretary’s March 21, 2014 request asking the Department of
Transportation Office of Inspector General to undertake a review of the National
Highway Traffic Safety Administration’s (NHTSA) safety functions and processes
related to the General Motors’ recall. We will be taking the Secretary’s request
into account as we will build on our previous reviews of NHTSA’s oversight of
vehicle safety, most recently in our October 2011 report - Process Improvements
Are Needed for Identifying and Addressing Vehicle Safety Defects.

Our office stands committed to working with Congress and Secretary Foxx in
reviewing NHTSA’s programs and identifying opportunities to enhance its
oversight and performance. I share the Secretary’s commitment to ensuring that
safety remains the Department’s top priority for consumers and the protection of
those who travel on our Nation’s roadways.


DOT OIG’s prior related work:

Process Improvements Are Needed for Identifying and Addressing Vehicle Safety Defects
(October 6, 2011)
Letter to Chairmen Rockefeller and Pryor Regarding Whether Former NHTSA Employees
Exerted Undue Influence on Safety Defect Investigations (April 4, 2011)
Follow-up Audit on NHTSA's Office of Defects Investigation (September 23, 2004)
NHTSA Office of Defects Investigation (January 3, 2002)


For more information, please visit our web site: DOT, Office of Inspector General


                                              ###
                          THE SECRETARY OF TRANSPORTATION
                                          WASHINGTON, DC 20590



MEMORANDUM TO THE INSPECTOR GENERAL

TO:             Calvin L. Scovel III

FROM:           Anthony R. Foxx

DATE:           March 21, 2014

RE:             GM Recall – Request for Audit


On February 7, 2014, General Motors LLC (GM) notified NHTSA that it had determined that a
defect which relates to motor vehicle safety exists in more than 600,000 model year (MY) 2005-07
Chevrolet Cobalt and MY 2007 Pontiac G5 vehicles. GM expanded the recall on February 25, 2014,
to cover additional models/model year vehicles (MY 2006-07 Chevrolet HHR and Pontiac Solstice,
MY 2003-07 Saturn Ion and MY 2007 Saturn Sky vehicles), increasing the total number of vehicles
subject to recall to 1,367,146. The safety defect concerns a condition in which an affected vehicle’s
ignition switch may unintentionally move from the “run” position to the “accessory” or “off” position
resulting in a loss of power. This defect may result in airbags not deploying as they are designed to
do in the event of an accident.

On March 4, 2014, NHTSA issued a Special Order Directed to GM, initiating a Timeliness Query to
evaluate the timing of GM’s defect decision making and reporting of the safety defect to NHTSA.
NHTSA has directed GM to respond to the Special Order by April 3.

In addition to NHTSA’s investigation of GM and oversight of the GM recalls (including steps to
evaluate airbag non-deployment issues associated with the Cobalt and Ion), NHTSA has received
numerous requests from Congress, the public and the press asking whether NHTSA acted in an
expeditious and timely manner to identify and pursue the safety defects covered by the GM recalls
and whether NHTSA had and currently has sufficient resources, processes and data available to it to
fulfill its safety function with respect to this recall. At the present time, we are not aware of any
information to suggest that NHTSA failed to properly carry out its safety mission based on the data
available to it and the processes it followed. Nonetheless, in an abundance of caution, I have directed
NHTSA and the Office of the General Counsel to jointly and collaboratively conduct an internal, due
diligence review to evaluate these questions (and any related questions that arise during the course of
the review.) In addition, I request that you initiate an audit to assess these issues as they pertain to
the GM recall for the period 2003 until the February 7, 2014 (the date of the initial GM recall).1 An
audit by your office will ensure that DOT and NHTSA have a full understanding of the facts
regarding the GM recall and can take corrective actions to enhance NHTSA’s safety function to the
extent necessary and appropriate.



1
  I note that the Office of the Inspector General conducted an audit of NHTSA's Office of Defects Investigation for
Toyota that covered much of this time period and that NHTSA has acted to implement the process improvements
identified in the report. See “Process Improvements Are Needed for Identifying and Addressing Vehicle Safety Defects,”
Report No. MH-2012-001 (Oct. 6, 2011).
